Prepared by PrintingHouse Press, Ltd. 10 East 39th Street, New York, NY 10016
> Tel No: (212) 719-0990 Fax No: (212) 398-9253
STATE OF NEW YORK
COUNTY OF NEW YORK

)

) SS

James Pacheco, Being duly sworn, deposes and says that deponent is not party to the action, and is over 18
years of age.
That on 12/16/2019 deponent caused to be served 3 copy(s) of the within
Brief in Opposition to Petition for Writ of Certiorari
upon the attorneys at the address below, and by the following method:
By Hand
Littman Krooks LLP
Attorneys for Petitioners
655 3rd Avenue
20th Floor
New York, NY 10017
212-490-2020
mwalsh@littmankrooks.com

Sworn to me this
Monday, December 16, 2019
Antoine Victoria Robertson Coston
Notary Public, State ofNew York
No.01RO6286515
Qualified in Nassau County
Commission Expires on 7/29/2021

Case Name: W. A. v Hendrick Hudson Central School
District (2)
Docket/Case No: 19-616
Index:

